Exhibit D

Updated 8/15/18

As support for the hourly rates requested with this motion: we have attached a list of cases
where the timekeepers listed have received our new rates or have received increased rates in black
lung claims(see #1-65); and we have, also, attached a list of older cases where the timekeepers
listed have received our previous rates in black lung claims(see #66-88). Additionally, we have
included on this list the time duration for these cases. A review of the list clearly shows Attorney
Wolfe has received fee awards of $300 per hour for more than ten years. In fact, the Benefits
Review Board approved a fee award of $400 per hour for Mr. Wolfe’s work during February 2005
thru January 2007. Furthermore, he has received $300 per hour for time as early as 1998.

List of cases supporting the hourly rates requested in this motion.
1. Earl L. Addair v. US Steel Mining Company, and Director, OWCP Case No: 2015-BLA05559 (June 5, 2018). Judge Paul C. Johnson, Jr. awarded Attorney Wolfe $350 per hour,
Attorney Delph $250 per hour, Attorney Austin $200 per hour, Attorney Herman $150
per hour, and $100 per hour for legal assistants.
May 15, 2015 to March 5, 2018
2. Tracy B. Hurley v. Argus Energy, and Director, OWCP Case No: 2015-BLA-5733 (May
29, 2018). Judge Larry A. Temin awarded Attorney Wolfe $325 per hour, Attorney Delph
$200 per hour, Attorney Austin $200 per hour, and $100 per hour for legal assistants.
July 13, 2015 to March 19, 2018
3. Nelva L. Hall, widow of and o/b/o Carl Hall, deceased miner v. Golden Oak Mining
Company, L.P., and Director, OWCP Case No: 2011-BLA-05151 and 2015-BLA-05876
(Nov 2, 2017). Judge Morris D. Davis awarded Attorney Wolfe $375 per hour, Attorney
Delph $300 per hour, Attorney Austin $200 per hour, and $100 per hour for legal
assistants.
May 29, 2014 to Jan 6, 2016
4. James Suazo v. Basin Resources, inc., and Director, OWCP Case No: 2015-BLA-05369
(April 17, 2018). Judge Daniel F. Solomon awarded Attorney Wolfe $350 per hour,
Attorney Austin $200 per hour, Attorney R. Wolfe $150 per hour, and $75 per hour for
legal assistants.
Oct 1, 2015 to Feb 6, 2018
5. Richard A. McCoy v. Jewell Smokeless Coal Corporation, and Director, OWCP Case No:
2017-BLA-05272 (April 11, 2018). Judge Monica Markley awarded Attorney Wolfe $350
per hour and $100 per hour for legal assistants.
Dec 27, 20116 to Jan 20, 2018
6. Claud F. Breeding v. C & J Coal Company, and Director, OWCP Case No: 2015-BLA05755 (March 23, 2018). Judge Morris D. Davis awarded Attorney Wolfe $375 per hour,
Attorney Delph $250 per hour, Attorney Austin $200 per hour, and $100 per hour for
legal assistants.
July 27, 2015 to Oct 16, 2017
7. Robert R. Fleming v. Consolidation Coal Company, and Director, OWCP Case No: 2015BLA-05760 (March 23, 2018). Judge Morris D. Davis awarded Attorney Wolfe $375 per
hour, Attorney Delph $250 per hour, Attorney Austin $200 per hour, and $100 per hour
for legal assistants.
July 27, 2015 to Oct 30, 2017

Updated 8/15/18

8. Tony A. Presley v. Jewell Smokeless Coal Corp., and Director, OWCP Case No: 2016BLA-05531 (March 23, 2018). Judge William T. Barto awarded Attorney Wolfe $350 per
hour, Attorney Delph $300 per hour, Attorney Austin $200 per hour, and Attorney R.
Wolfe $150 per hour.
April 29, 2016 to nov 13, 2017
9. Charles H. Osborne v. Frasure Creek Mining, LLC, and Director, OWCP Case No: 2016BLA-05312 (Feb 6, 2018). Judge Larry W. Price awarded Attorney Wolfe $350 per hour,
Attorney Austin $200 per hour, Attorney R. Wolfe $150 per hour, and $100 per hour for
legal assistants.
Jan 30, 2016 to Nov 4, 2017
10. Mark A. Vandyke v. Paramont Coal Company, LLC, and Director, OWCP Case No: 2014BLA-05397 (March 8, 2018). Judge Larry W. Price awarded Attorney Wolfe $350 per hour,
Attorney Gilligan $225 per hour, Attorney Austin $200 per hour, and $100 per hour for
legal assistants.
March 3, 2014 to Nov 5, 2016
11. John Mark Underwood
v.
Virginia Crews Coal Co./Alpha Natural Resources, and
Director, OWCP Case No: 2015-BLA-05618 (Feb 23, 2018). Judge Paul C. Johnson, Jr.
awarded Attorney Wolfe $350 per hour, Attorney Reynolds $300 per hour, Attorney Austin
$200 per hour, Attorney R. Wolfe $150 per hour, and $100 per hour for legal assistants.
June 4, 2015 to Sept 2, 2017
12. William C. Culbertson v. TDL Coal Co., Inc., and Director, OWCP Case No: 2016-BLA05498 (Jan 25, 2018). Judge William T. Barto awarded Attorney Wolfe $350 per hour,
Attorney Delph $300 per hour, Attorney R. Wolfe $150 per hour, Attorney Herman $150
per hour, and $100 per hour for legal assistants.
April 14, 2016 to sept 18, 2017
13. Randolph E. Shupe v. Doss Fork Coal Company, and Director, OWCP Case No: 2015BLA-05782 (Dec 27, 2017). Judge Morris D. Davis awarded Attorney Wolfe $375 per hour,
Attorney Delph $250 per hour, Attorney Austin $200 per hour, Attorney R. Wolfe $150
per hour, and $100 per hour for legal assistants.
Aug 1, 2015 to Oct 7, 2017
14. Donald C. Wright v. Consol of Kentucky, Inc., and Director, OWCP Case No: 2013-BLA06023 (Dec 4, 2017). Judge Morris D. Davis awarded Attorney Wolfe $375 per hour,
Attorney Delph $250 per hour, Attorney Austin $200 per hour, Attorney Gilligan $225 per
hour, Attorney R. Wolfe $150 per hour, and $100 per hour for legal assistants.
Aug 16, 2013 to Oct 7, 2017
15. Edward L. Wilburn v. Dickenson-Russell Coal Company, LLC, and Director, OWCP Case
No: 2015-BLA-05224 (Nov 27, 2017). Judge Larry S. Merck awarded Attorney Wolfe $325
per hour, Attorney Austin $200 per hour, Attorney Herman $150 per hour, and $100 per
hour for legal assistants.
April 8, 2013 to May 15, 2017
16. Dominic Lasala v. Bishop Coal Co., and Director, OWCP Case No: 2012-BLA-05037 (Nov
1, 2017). Judge William T. Barto awarded Attorney Wolfe $325 per hour and Attorney
Austin $200 per hour.
March 4, 2016 to Sept 11, 2017
17. Jeffery D. Fuller v. GBL Enterprises, Inc., and Director, OWCP Case No: 2013-BLA-05767
(Oct 30, 2017). Judge Larry S. Merck awarded Attorney Wolfe $325 per hour, Attorney

Updated 8/15/18

Delph $250 per hour, Attorney Austin $200 per hour, Attorney Rachel Wolfe $150 per
hour, and $100 per hour for legal assistants.
Sept 30, 2013 to Jan 23, 2017
18. Betty P. Puckett, survivor of and o/b/o Larry J. Puckett and Director, OWCP Case No:
2017-BLA-05121 (Nov 3, 2017). Judge Larry S. Merck awarded Attorney Wolfe $350 per
hour, Attorney Austin $200 per hour, and $100 per hour for legal assistants.
July 17, 2013 to October 18, 2016
19. Nell Gay Mounts o/b/o the Estate of Steven Mounts and Director, OWCP Case No: 2013BLA-05921 (Nov 3, 2017). Judge Larry S. Merck awarded Attorney Wolfe $325 per hour,
Attorney Delph $250 per hour, Attorney Austin $200 per hour, and $100 per hour for
legal assistants.
July 17, 2013 to October 18, 2016
20. Lowell D. Ray v. Island Creek Coal Co. and Director, OWCP Case No: 2015-BLA-05677
(June 6, 2017). Judge William T. Barto awarded Attorney Wolfe $350 per hour and Attorney
Delph $275 per hour,
July 18, 2015 to March 8, 2017
21. James E. Hurley v. D D & E Mining Company, Inc., and Director, OWCP Case No: 2014BLA-5936 (Oct 23, 2017). Judge Larry A. Temin awarded Attorney Wolfe $325 per hour,
Attorney Austin $200 per hour, and $100 per hour for legal assistants.
Sept 25, 2014 to April 27, 2017
22. Raymond H. Gannon v. Eastern Coal Corporation, C/O Healthsmart CCS, and Director,
OWCP Case No: 2017-BLA-5627 (Sept 14, 2017). Judge Paul C. Johnson, Jr. awarded
Attorney Wolfe $325 per hour, Attorney Delph $250 per hour, Attorney Austin $200 per
hour, and $100 per hour for legal assistants.
April 15, 2017 to July 10, 2017
23. James E. Sanders v. Island Creek Coal Company and Director, OWCP Case No: 2016BLA-05981 (Sept 8, 2017). Judge Larry S. Merck awarded Attorney Wolfe $325 per hour
and $100 per hour for legal assistants.
Sept 10, 2016 to April 3, 2017
24. Michael G. Hairston v. U.S. Steel Mining Co., and Director, OWCP Case No: 2015-BLA05224 (Nov 2, 2017). Judge Paul C. Johnson, Jr. awarded Attorney Wolfe $350 per hour,
Attorney Delph $250 per hour, Attorney Austin $200 per hour, Attorney Herman $150
per hour, and $100 per hour for legal assistants.
Dec 22, 2014 to Sept 26, 2017
25. David Farrell Persianni v. Top Gun Coal Company/WV CWP Fund, and Director, OWCP
Case No: 2016-BLA-05214 (Aug 10, 2017). Judge Paul C. Johnson, Jr. awarded Attorney
Wolfe $350 per hour, Attorney Delph $250 per hour, Attorney Austin $200 per hour,
Attorney Herman $150 per hour, and $100 per hour for legal assistants.
Jan 10, 2016 to June 10, 2017
26. Ray Shell v. Scott’s Branch Coal Company, and Director, OWCP Case No: 2012-BLA05448 (Aug 7, 2017). Judge Larry W. Price awarded Attorney Wolfe $350 per hour,
Attorney Austin $200 per hour, and Attorney R. Wolfe $150 per hour.
March 7, 2015 to March 24, 2016
27. Noah L. VanDyke v. Pioneer Coal Inc., and Director, OWCP Case No: 2016-BLA-05481
(July 7, 2017). Judge Willaim Barto awarded Attorney Wolfe $350 per hour, Attorney R.
Wolfe $155 per hour and $100 per hour for legal assistants.

Updated 8/15/18

May 12, 2016 to Feb 4, 2017
28. Lonnie D. Strunk v. Becky Coal Company, Inc., and Director, OWCP Case No: 2015-BLA05694 (June 1, 2017). Judge William T. Barto awarded Attorney Wolfe $350 per hour,
Attorney Delph $300 per hour, Attorney R. Wolfe $150 per hour, and $100 per hour for
legal assistants.
July 12, 2015 to March 27, 2017
29. Joan Street, (widow of and on behalf of Harold Street, deceased miner), v. Island Creek
Coal Company and Director, OWCP Case No: 2011-BLA-05895 and 2011-BLA-06370 (April
28, 2017). Judge Morris D. Davis awarded Attorney Wolfe $350 per hour and Attorney
Austin $200 per hour.
Aug 15, 2016 to March 27, 2017
30. Appleton & Ratliff Coal Corporation v. Dewey Ratliff; Director OWCP No. 15-4255 (April
19, 2017). The United States Court of Appeals For the Sixth Circuit awarded Attorney
Wolfe $425 per hour, Attorney Austin $200 per hour, Attorney Herman $150 per hour,
and Attorney R. Wolfe $150 per hour.
Nov 15, 2015 to Nov 18, 2016
31. Betty G. Poseno, Survivor of Paul D. Poseno v. U.S. Steel Mining Company, and Director,
OWCP No. 2015-BLA-05625 (April 17, 2017). Judge William T. Barto awarded Attorney
$350 per hour, Attorney Delph $300 per hour, Attorney Austin $200 per hour, and $100
per hour for legal assistants.
June 10, 2015 to March 3, 2017
32. Itmann Coal Company, c/o HealthSmart Casualty Claims Solutions v. Marvin Lawrence,
and Director, OWCP No. 16-1348 (March 3, 2017). The United States Cour of Appeals for
the Fourth Circuit awarded Attorney Wolfe $425 per hour, Attorney Austin $200 per hour,
Attorney Herman $150 per hour, and Attorney R. Wolfe $150 per hour.
March 30, 2016 to Jan 19, 2017
33. Vernon A. Underwood v. Solus Coal, Inc./ xurich American Insurance Group, and Director,
OWCP Case No. 2016-BLA-05104(Feb 14, 2017) Judge Monica Markley awarded Attorney
Wolfe $350 per hour, Attorney Austin $200 per hour, Attorney R. Wolfe $150 per hour,
and $100 per hour for legal assistants.
Nov 9, 2015 to March 25, 2016
34. Island Creek Coal Company v. Denny Marcum, et al., No. 15-4301(Jan 9, 2017) The
United States Court of Appeals for the Sixth Circuit awarded Attorney Wolfe $400 per
hour, Attorney Austin $200 per hour, Attorney Herman $150 per hour, Attorney R. Wolfe
$150 per hour, and $100 per hour for legal assistants.
Nov 26, 2015 to July 29, 2016
35. Dovie Simmons (widow of James) v. Raider Mining, Inc./ Employers Insurance of WASAU
and Director, OWCP Case No. 2013-BLA-05276 (March 23, 2017). Judge Paul C. Johnson
awarded Attorney Wolfe $350 per hour, Attorney Austin $200 per hour, Attorney R. Wolfe
$150 per hour, and $100 per hour for legal assistants.
April 23, 2014 to January 28, 2017
36. Sonny Birchfield v. Blue Haven Energy Inc./West Virginia CWP Fund and Director, OWCP
Case No. 2014-BLA-05787 (March 3, 2017). Judge Monica Markley awarded Attorney
Wolfe $350 per hour and $100 per hour for legal assistants.
August 7, 2014 to November 12, 2016

Updated 8/15/18

37. Clarence H. Kiser, survivor of Coasty H. Kiser v. and Director, OWCP Case No. 2014BLA-05204 (March 27, 2017). Judge Paul R. Almanza awarded Attorney Wolfe $350 per
hour, Attorney Austin $200 per hour, Attorney Herman $150 per hour, Attorney R. Wolfe
$150 per hour, and $100 per hour for legal assistants.
December 19, 2013 to November 25, 2016
38. Robert L. Courson, Jr., v. Sunbeam Coal Corp./Rockwood Insurance Co. PA., and
Director, OWCP Case No. 2015-BLA-05021 (March 7, 2017). Judge Paul C. Johnson, Jr.
awarded Attorney Wolfe $350 per hour, Attorney Reynolds $300 per hour, Attorney Austin
$200 per hour, Attorney R. Wolfe $150 per hour, and $100 per hour for legal assistants.
April 28, 2015 to February 11, 2017
39. David Horvath v. Consolidation Coal Company, and Director, OWCP Case No. 2015BLA-05676 (Feb 21, 2017). Judge William T. Barto awarded Attorney Wolfe $350 per hour,
Attorney Delph $300 per hour, Attorney Austin $200 per hour and $100 per hour for legal
assistants.
March 10, 2016 to January 28, 2017
40. Harvey J. Lockhart v. Shannon Pocahontas Mining Co., and Director, OWCP Case No.
2015-BLA-05222 (Feb 14, 2017). Judge Monica Markley awarded Attorney Wolfe $350 per
hour, Attorney Austin $200 per hour, Attorney Herman $150 per hour, Attorney R. Wolfe
$150 per hour, and $100 per hour for legal assistants.
February 7, 2015 to October 25, 2016
41. Perry T. Stevens v. Clinchfield Coal Company, and Director, OWCP Case No. 2012-BLA06128 (Feb 14, 2017). Judge Monica Markley awarded Attorney Wolfe $350 per hour,
Attorney Delph $235 per hour, Attorney Austin $200 per hour, and $100 per hour for
legal assistants.
December 11, 2014 to September 2, 2016
42. Edward J. Fortney, Estate, v. Director, OWCP Case No. 2014-BLO-00014 (Jan 24, 2017).
Judge Jonathan C. Calianos awarded Attorney Wolfe $425 per hour, Attorney Gilligan
$225.00 per hour, Attorney Austin $200 per hour, and legal assistants at $100 per hour.
July 14, 2014 to October 8, 2016
43. Johnnie D. Lee(Dec.) v. Cody Mining Company, Inc., and Director, OWCP Case No. 2012BLA-05365 (Jan 20, 2017). Judge Clement J. Kennington awarded Attorney Wolfe $425
per hour, Attorney Delph $300 per hour, Attorney Austin $200 per hour, and $100 per
hour for legal assistants.
June 26, 2013 to May 11, 2016
44. Annie L. Muncy, survivor of Walter A. Muncy v. Director, OWCP Case No. 2013-BLA06086 (Jan 17, 2017). Judge Larry S. Merck awarded Attorney Wolfe $425 per hour,
Attorney Reynolds $300 per hour, Attorney Austin $200 per hour, and $100 per hour for
legal assistants.
March 14, 2015 to September 23, 2016
45. Jacqueline M. Curry (widow of Joncie Curry, deceased miner) v. Director, OWCP Case
No. 2013-BLA-05777 (Jan 18, 2017). Judge Morris D. Davis awarded Attorney Wolfe $350
per hour and $100.00 per hour for legal assistants.
May 20, 2013 to July 15, 2016
46. Everette F. Miles v. Clinchfield Coal Company, and Director, OWCP Case No. 2016-BLA05581 (Jan 18, 2017). Judge William T. Barto awarded Attorney Wolfe $350 per hour.
May 11, 2016 to October 28, 2016

Updated 8/15/18

47. Monty L. Reynolds v. Dominion Coal Corporation, and Director, OWCP Case No. 2014BLA-05469 (Dec 2, 2016). Judge Larry W. Price awarded Attorney Wolfe $350 per hour
and $100 per hour for legal assistants.
February 24, 2014 to April 7, 2016
48. Gordon E. Looney v. Sidney County Coal Corp.., and Director, OWCP Case No. 2016BLA-05295 (Dec 2, 2016). Judge Larry W. Price awarded Attorney Wolfe $350 per hour,
Attorney Austin $200 per hour, and $100 per hour for legal assistants.
March 27, 2016 to September 21, 2016
49. Norman W. Mosley v. Dominion Coal Corporation, and Director, OWCP Case No. 2015BLA-05044 (Nov 9, 2016). Judge Larry W. Price awarded Attorney Wolfe $350 per hour,
Attorney Delph $250 per hour, Attorney Austin $200 per hour, Attorney R. Wolfe $150
per hour, and $100 per hour for legal assistants.
October 22, 2014 to May 17, 2016
50. Bobby G. Wright, v. Shipyard River Coal Terminal, Co., and Director, OWCP Case No.
2016-BLA-05166 (Nov 7, 2016). Judge Clement J. Kennington awarded Attorney Wolfe
$425 per hour and Attorney R. Wolfe $150 per hour.
December 30, 2015 to June 1, 2016
51. Geraldine M. Yates, Widow of Rush Yates, v. Jewell Smokeless Coal Corp.,, and Director,
OWCP Case No. 2014-BLA-05520 (Oct 19, 2016). Judge Larry W. Price awarded Attorney
Wolfe $350 per hour, Attorney Austin $200 per hour, and $100 per hour for legal
assistants.
April 21, 2014 to April 26, 2016
52. David M. Cline v. Wellmore Energy Co., LLC,, and Director, OWCP Case No. 2014-BLA05410 (Oct 19, 2016). Judge Larry W. Price awarded Attorney Wolfe $350 per hour,
Attorney Austin $200 per hour, Attorney R. Wolfe $150 per hour, and $100 per hour for
legal assistants.
March 7, 2014 to February 17, 2016
53. Tommy G. Tackett, v. Sidney Coal Company, Inc., and Director, OWCP Case No. 2015BLA-5592 (Oct 17, 2016). Judge Steven D. Bell awarded Attorney Wolfe $325 per hour,
Attorney Austin $200 per hour, and $100 per hour for legal assistants.
June 1, 2015 to September 12, 2016
54. Danny Smith, II, v. Sidney Coal Company, Inc., and Director, OWCP Case No. 2015BLA-5728 (Oct 13, 2016). Judge Steven D. Bell awarded Attorney Wolfe $325 per hour
and $100 per hour for legal assistants.
July 12, 2015 to August 29, 2016
55. Billy Joe Kilgore v. ICG East Kentucky, LLC and Director, OWCP, Case No. 2013-BLA6131 (September 6, 2016). Judge Steven D. Bell awarded Attorney Wolfe $350 per hour,
Attorney Gilligan $225 per hour, Attorney Delph $230 per hour, and legal assistants
$100.00 per hour.
September 27, 2013 to June 22, 2016
56. Roy J. Bennett v. Clinchfield Coal Company and Director, OWCP, Case Nos: 2013-BLA05933 and 2015-BLA-05863 (September 19, 2016). Judge Morris D. Davis awarded
Attorney Wolfe $350 per hour, Attorney Austin $200 per hour, and legal assistants
$100.00 per hour.
July 15, 2013 to July 21, 2016 and August 28, 2015 to June 21, 2016

Updated 8/15/18

57. Doley Hall v Cody Mining Company, Inc. Case No. 2013-BLA-05449 (January 26, 2016).
Judge Timothy J. McGrath awarded Attorney Wolfe $425 per hour, Attorney Austin $200
per hour, and legal assistants $100.00 per hour.
Jan 28, 2013 to Oct 18, 2015
58. Donaldson Mine Company v. Raymond Hinzman; Director, Office of Workers’
Compensation Programs, USDOL No. 16-1185 (April 13, 2016) The Sixth Circuit Court
of Appeals approved the hourly rates of $425 per hour for Attorney Wolfe and $150 per
hour for Attorney Herman.
Feb 23, 2016 to March 8, 2016
59. Caleb Martin v. Dominion Coal Corporation Case No. 2014-BLA-05545 (June 22, 2016).
Judge Larry W. Price awarded Attorney Wolfe $350 per hour, Attorney Gilligan $225 per
hour, Attorney Austin $200 per hour, and legal assistants $100 per hour.
April 21, 2014 to February 6, 2016
60. James Young v. James River Coal Service Case No. 2014-BLA-05168 (July 25, 2016).
Judge Steven B. Berlin awarded Attorney Wolfe $425 per hour and Attorney Austin $200
per hour, and legal assistants $100 per hour.
December 5, 2013 to October 13, 2015
61. Terry Wayne Pigg v. Hubble Mining Company, LLC Case No. 2013-BLA-6126 (August
2, 2016). Judge Steven D. Bell awarded $350 per hour to Attorney Wolfe, $225 per hour
to Attorney Gilligan, $200 per hour to Attorney Austin, and legal assistants $100 per hour.
September 27, 2013 to July 6, 2016
62. Terry Lynn Green v. Two Rose Coal Company, Inc. Case No. 2014-BLA-5047 (August
9, 2016). ). Judge Steven D. Bell awarded $350 per hour to Attorney Wolfe, $200 per
hour to Attorney Austin, and legal assistants $100 per hour.
July 7, 2015 to July 6, 2016
63. Michael G. Smith v. Eastern Associated Coal Company Case No. 2015-BLA-05406 (April
21, 2016). Judge Lystra A. Harris awarded $350 per hour to Attorney Wolfe, $200 per
hour to Attorney Austin,and legal assistants $100 per hour.
March 23, 2015 to February 26, 2016
64. Southern Ohio Coal Company
v.
Nicky J. Weaver; Director, Office of Workers’
Compensation Programs
No. 16-1580 (July 11, 2016). The Fourth Circuit Court of
Appeals awarded $425 to Attorney Wolfe and $150 to Attorney. Herman.
May 31, 2016 to June 21, 2016
65. Ermal Ray Wolford v. Rawl Sales & Processing Company BRB No. 2015-BLA-5752 (October
11, 2016). Judge Steven D. Bell awarded Attorney Wolfe $325 per hour and $100.00 per
hour for legal assistants.
August 2, 2015 to August 25, 2016
66. B.C. (O/B/O of J.C.) v. Horn Construction Co. and Director, OWCP, BRB No. 07-0437 BLA
2008 WL 4249797 (Aug. 27, 2008). The Benefits Review Board affirmed Judge Burke’s
Attorney Fee Order awarding Attorney Wolfe $400.00 per hour; Attorney Belcher $250.00
per hour; and legal assistants $100 .00 per hour.
Feb 16, 2005 to Jan 26, 2007

Updated 8/15/18

67. Herbert l. Honeycutt v. Tammy Anne, Inc. and old Republic Insurance Co. and Director,
OWCP Case No: 2006-BLA-5209 (July 10, 2012). Judge Merck awarded on remand $300
per hour for Attorney Wolfe, $175 per hour for Attorney Gilligan and $100 per hour for
the legal assistants.
Sept 6, 2005 to Nov 5, 2009
68. Donald Justus v. Sow Branch Coal Company and Director, OWCP Case No: 11-0606 (April
30, 2012). The Benefits Review Board affirmed the Administrative Law Judge’s award of
$300 per hour for Attorney Wolfe, $250 for Attorney Belcher, $200 per hour for Attorney
Delph, $175 per hour for Attorney Gilligan and $100 per hour for the legal assistants.
May 16, 2005 to Oct 25, 2010
69. Martha M. West v. N.O.W. Coal Company and Director, OWCP Case No: 12-0019 BLA
(October 24, 2012). The Benefits Review Board affirmed the Administrative Law Judge’s
award of $300 per hour for Attorney Wolfe, $200 per hour for Attorney Delph and $175
per hour for Attorney Gilligan.
Sept 1, 2006 to Aug 7, 2007 and Aug 25, 2008 to Feb 28, 2009
70. Cox v. Westmoreland Coal Co., and Director OWCP, Case No. 2007-BLA-05120 (Nov. 30,
2010). Judge Chapman awarded Attorney Wolfe $300.00 per hour; Attorney Belcher
$200.00 per hour; Attorney Delph $200.00 per hour; and $100.00 per hour for legal
assistants.
Aug 18, 2006 to Jan 15, 2008
71. S.B. v. Director, OWCP, 2006-BLO-00008 (Sept. 27, 2007). Judge Solomon awarded
Attorney Wolfe $300 per hour, Attorney Delph $200 per hour, and $100 per hour for legal
assistant time.
Oct 7, 2004 to June 25, 2007
72. Blevins v. Island Fork Construction, LTD., 2006-BLA-5543 (Nov. 3, 2006).
Judge Stansell-Gamm awarded Attorney Wolfe $300 per hour, and $100 per hour for legal
assistant time.
Jan 17, 2006 to Aug 2, 2006
73. L.O.C. (widow of D.B.C.) v. Virginia Pocohontas Co., Inc., 2006-BLA-05015 (May 3, 2007).
Judge Solomon awarded Attorney Wolfe $300 per hour and Attorney Delph $200 per hour.
June 17, 2005 to Jan 5, 2007
74. T.C., widow of A.C., v. Betty B. Coal Co., 2007-BLA-5165 (April 16, 2007).
Judge Stansell-Gamm awarded Attorney Wolfe $300 per hour, and Attorney Belcher $250
per hour, and $100 per hour for legal assistant time.
Aug 20, 2006 to Feb 1, 2007
75. R.F. v. Ramblin Coal Co., Inc., 2004-BLA-06414 (Feb. 1, 2007).
Judge Solomon awarded Attorney Wolfe $300 per hour, and Attorney Belcher $250 per
hour.
March 15, 2004 to Nov 11, 2006
76. Hogston v. Blue Star Coal Corp., 2005-BLA-5418 (Nov. 29, 2006).
Judge Stansell-Gamm awarded Attorney Wolfe $300 per hour, Attorney Belcher $250 per
hour, and $100 per hour for legal assistant time.
Jan 13, 2005 to Sept 26, 2006
77. H.P. v. Premium Energy, Inc., 2007-BLA-5079 (Nov. 8, 2007).
Judge Chapman awarded Attorney Wolfe $300 per hour, Attorney Belcher $200 per hour,
Attorney Delph $150 per hour, and $100 per hour for legal assistants.

Updated 8/15/18

August 4, 2006 to August 11, 2007
78. Osborne v. Island Creek Coal Co., 2007-BLA-5032 (Nov. 27, 2007).
Judge Burke awarded Attorney Wolfe $300 per hour, Attorney Belcher $250 per hour,
Attorney Reynolds $200 per hour, Attorney Delph is $200, and $100 per hour for legal
assistant time.
Aug 26, 2006 to July 12, 2007
79. Wanda Hall, widow of Donald Hall, v. U.S. Steel Corp., 2005-BLA-5532 (May 24, 2007).
Judge Stansell-Gamm awarded Attorney Wolfe $300 per hour, Attorney Belcher $250 per
hour, and $100 per hour for legal assistant time.
Dec 19, 2004 to March 24, 2007
80. C.V.R. v. Westmoreland Coal Co., 2007-BLA-5320 (May 8, 2008).
Judge Chapman awarded Attorney Wolfe $300 per hour, Attorney Delph $200 per hour,
Attorney Gilligan $125 per hour, and $100 per hour for legal assistant time.
Nov 2, 2006 to Feb 26, 2008
81. H.C. by D.T. and R.W., Executors v. Queen Anne Coal Co., 2006-BLA-05058 (June 25,
2007). Judge Solomon awarded Attorney Wolfe $300 per hour, Attorney Belcher $250 per
hour, and $100 per hour for legal assistant time.
April 4, 2004 to Feb 7, 2006
82. G.M.M. v. Jamb Mining, Inc., 2007-BLA-5681 (March 31, 2008). Judge Chapman awarded
Attorney Wolfe $300 per hour and $100 per hour for legal assistant time.
March 14, 2007 to Feb 5, 2008
83. R.C., widow of H.C., v. Clinchfield Coal Co., 2007-BLA-5166 (May 8, 2008). Judge
Chapman awarded Attorney Wolfe $300 per hour, $200 per hour for Attorney Delph, and
$100 per hour for legal assistant time.
July 9, 2005 to Oct 23, 2007
84. C.E.C. v. Robin Resources, Inc., 2006-BLA-6117 (Oct. 1, 2007). Judge Stansell-Gamm
awarded Attorney Wolfe $300 per hour and $100 per hour for legal assistant time.
Aug 24, 2006 to Aug 13, 2007
85. B.L. v. JJ Coal Co., 2007-BLA-5145 (July 22, 2008). Judge Chapman awarded Attorney
Wolfe $300 per hour, $200 per hour for Attorney Delph, and $100 per hour for legal
assistant time.
Aug 29, 2006 to May 16, 2008
86. F.E. v. Upper Mill Mining Co., 2006-BLA-06092 (July 17, 2008). Judge Johnson awarded
Attorney Wolfe $300 per hour, Attorney Delph $200 per hour, and $100 per hour for legal
assistants.
Nov 17, 2006 to June 13, 2008
87. Barbara Boatright, widow of James W. Boatright v. Clinchfield Coal Co.,
2005-BLA-05883 (Oct. 16, 2006). Judge Burke awarded Attorney Wolfe $300 per hour and
Attorney Delph $200 per hour.
April 27, 2005 to July 26, 2006
88. R.D. v. Farwest Coal Co. Case No: 2005-BLA-6152 (January 29, 2009). Judge Chapman
awarded $300 per hour for Attorney Wolfe and $100 per hour for legal assistants.
Feb 6, 1998 to Sept 22, 2008

